Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



November 16, 2011

Kim
  mberly S. Grreene, WT 7B-K
Ronald L. Oweens, SP 3A-C
                        C

RE
 EQUEST FOR FINAL AC
                   CTION – AUDIT 2010-13
                                       3285 – DIST
                                                 TRIBUTOR A
                                                          AUDIT OF
VO
 OLUNTEER ENERGY
          E       CO
                   OOPERATIV VE



Atta
   ached is the
              e subject fina
                           al report for your
                                         y     review and action. Your written commentss,
which addresse ed your man nagement de   ecision and a
                                                     actions plannned or taken
                                                                             n, have been
                                                                                        n
included in the report. Plea
                           ase notify us s when final action is complete.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have any   y questions or                      ndings, plea
                            o wish to discuss our fin          ase contact m me or Richard C.
Underwood, Diirector, Corp porate Goverrnance and Finance Aud   dits, at (423) 785-4824. We
app preciate the courtesy an
                           nd cooperatio
                                       on received from your sttaff during thhe audit.




David P. Wheeeler
Deputy Assista
             ant Inspectorr General
 (A
  Audits)
ET 3C-K

JLM
  M:JP
Atta
   achment
cc (Attachmentt):
      Steve Byone, WT 4B   B-K
      Micheal B.
               B Fussell, WT
                           W 9B-K
      Peyton T. Hairston, Jr.,
                            J WT 7B-KK
      Tom Kilgoore, WT 7B--K
      Richard W.
               W Moore, ET E 4C-K
      Robert A. Morris, WT  T 7C-K
      Emily J. Reynolds,
               R           OCP
                           O    1L-NST
      John M. Thomas
               T        III, MR
                             M 6D-C
      John G. Trawick,
               T        WT  T 3D-K
      Diane T. Wear, WT 4B-K4
      Robert B.. Wells, WT 9B-K
      OIG File No. 2010-13  3285
        
 


                                         Audit Report
 
Office
      of the Inspector General                                       

                                 To the Group President, Strategy
                                 and External Relations, and to the 
                                 Vice President, Retail Regulatory
                                                                    
                                 Affairs 
 

 

 

 

 


DISTRIBUTOR AUDIT OF
 

 

VOLUNTEER ENERGY
COOPERATIVE
 



 




 

 
 
 

 
Audit Team                                           Audit 2010-13285
Jessica L. Monroe                                   November 16, 2011
Jennifer R. Torregiano
Andrea L. Williams
Office of the Inspector General                                         Audit Report




ACRONYMS AND ABBREVIATIONS
EGC                        Enhanced Growth Credit
FCA                        Fuel Cost Adjustment
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hours
NISC                       National Information Solutions Cooperative
OIG                        Office of the Inspector General
TVA                        Tennessee Valley Authority
USDA                       United States Department of Agriculture




Audit 2010-13285
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 3
   EXPENDITURES OF ELECTRIC SYSTEM REVENUES
   DID NOT COMPLY WITH POWER CONTRACT ............................................ 4

   IMPROPER REPORTING OF ELECTRIC SALES AND/OR
   POTENTIAL DISCRIMINATION IN PROVIDING POWER TO
   CUSTOMERS................................................................................................... 7

   OTHER ISSUES ............................................................................................. 10

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 15

RECOMMENDATIONS ................................................................................ 16


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED OCTOBER 25, 2011, FROM RODY BLEVINS TO
   ROBERT MARTIN

C. MEMORANDUM DATED OCTOBER 31, 2011, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN




Audit 2010-13285
                      Audit 2010-13285 – Distributor Audit of the
                            Volunteer Energy Cooperative
                                    EXECUTIVE SUMMARY

Why the OIG Did This Audit
  As part of our annual audit plan, the OIG (Office of the Inspector General) performed an
  audit of the electric system of Volunteer Energy Cooperative, a distributor based in
  Decatur, Tennessee. The objective of the audit was to determine compliance with
  provisions of the power contract between the Tennessee Valley Authority (TVA) and
  Volunteer for the audit period July 2008 through June 2010. Key contract provisions
  included (1) proper reporting of electric sales, (2) nondiscrimination in providing power,
  and (3) use of electric revenue for approved purposes. For fiscal year (FY) 2010,
  Volunteer provided power to approximately 110,000 customers resulting in electric sales
  revenue of approximately $200 million. During the audit period, Volunteer also operated a
  natural gas division and a wholly owned propane subsidiary. At June 30, 2010, Volunteer
  had a 3.52 percent cash ratio before considering planned FY 2011 capital expenditures
  and a negative 2.09 percent cash ratio after considering planned FY 2011 capital
  expenditures.

What the OIG Found
  Volunteer generally complies with the contract provisions for (1) proper reporting of electric
  sales and (2) nondiscrimination in providing power. However, we noted instances of
  noncompliance with other provisions of the power contract. The most important instances
  were related to use of electric system revenues and customer classification. In relation to
  use of electric system revenues, Volunteer:

     Pledged electric funds to guarantee United States Department of Agriculture Rural
      Development (Rural Development) loans to customers.
     Leased-to-own diesel generators on behalf of a customer.
     Used electric funds to pay operating expenses of nonelectric businesses.
     Invested electric funds in a nonelectric business.
     Pledged electric funds to guarantee loans for nonelectric businesses.

  We estimate the total electric funds at risk at June 30, 2010, due to the above uses of
  electric system revenue, to be approximately $2.7 million. These risks have the potential
  to reduce the cash ratio from 3.52 percent before planned FY 2011 capital expenditures to
  2.03 percent.

  In the areas of customer classification and metering, Volunteer:

   Incorrectly classified approximately 8 percent of commercial accounts identified for
    follow-up review as residential.
   Did not use contract demand to classify General Power Rate – Schedule GSA
    customers.
                                                                                           Page i
                    Audit 2010-13285 – Distributor Audit of the
                          Volunteer Energy Cooperative
                                  EXECUTIVE SUMMARY

 Did not follow TVA guidance requiring documentation and maintenance of an evaluation
  explaining why a demand meter was not needed for customer accounts with usage
  exceeding 25,000 kilowatt hours.

The second issue was the result of a conscious decision made by Volunteer management
not to follow provisions of the power contract. We were unable to estimate the monetary
effect of all the issues we identified because in some instances information was not
available. However, for those instances where information was available, the monetary
impact would not be significant to Volunteer or TVA.

Other areas for improvement in contract compliance were noted regarding calculation of
customer bills and financial reporting to TVA. Specifically, we found:

 Time frames during the audit period where rates used to calculate customer bills did not
  match TVA approved retail rates (incorrect Fuel Cost Adjustments for 3 months, GSA
  Part 3 demand charges for 9 months, and Outdoor Lighting customer charges for
  24 months).
 Enhanced Growth Credit was incorrectly calculated for two customers.
 Calculation of the minimum bill amount for GSA customers differed from the minimum
  bill provision in the power contract.
 Billing system programming for GSA customer minimum bill calculation differed from
  the power contract minimum bill provision, and the calculation we were told was in use
  by Volunteer's President.
 Excess demand charges were not automatically calculated in the billing system for GSA
  customers.
 Allocations between electric and nonelectric businesses were not approved by TVA and
  did not consider all shared costs and expenses.

Volunteer's internal controls could be strengthened in relation to (1) the due diligence in
lending process, (2) customer contract maintenance, (3) customer identification on
contract documentation, and (4) accuracy of contract demand in the billing system.

We also identified three areas where TVA's oversight of distributors could be enhanced.
Two areas identified are new oversight issues addressing the lack of (1) guidance related
to the due diligence process for cooperatives providing loans to customers from funds
provided by Rural Development and (2) review of cooperative distributors' capital credit
allocations in the retail rate setting process. The remaining issue, regarding the lack of a
current joint cost study, has been reported in previous OIG distributor audit reports, and
TVA has agreed to take corrective action on this issue.



                                                                                        Page ii
                       Audit 2010-13285 – Distributor Audit of the
                             Volunteer Energy Cooperative
                                    EXECUTIVE SUMMARY

What the OIG Recommends
  We make 18 specific recommendations in this report related to Volunteer and recommend
  the Group President, Strategy and External Relations, work with Volunteer to resolve them.
  The recommendations generally relate to (1) complying with power contract provisions,
  (2) remediating classification and metering issues, and (3) strengthening internal controls.

  We also make three recommendations specific to TVA. Generally those recommendations
  are that the Group President, Strategy and External Relations, should (1) discontinue
  allowing distributors to pledge electric system funds as guarantees for customer loans with
  Rural Development or modify the power contract appropriately, (2) develop and provide
  guidance to distributors defining a proper due diligence process when loaning Rural
  Development funds to customers for economic development, and (3) consider capital credit
  allocations in the retail rate setting and approval process.

Volunteer and TVA Management's Comments

  With regard to the 18 specific recommendations related to Volunteer:

     Volunteer disagreed with 3 of the 18 recommendations including those related to
      (1) the practice of pledging electric funds to guarantee Rural Development loans to
      customers, (2) the leasing of diesel generators to customers, and (3) a more
      comprehensive due diligence in lending process. Volunteer agreed to take action on
      the remaining 15 recommendations.
     TVA management agreed with all of our recommendations but stated they plan to
      investigate further the finding regarding the leasing of diesel generators to customers.

  In regard to the recommendations that are specific to TVA, TVA management stated
  (1) they plan to recommend formal approval by the TVA Board of a Use of Revenues
  policy that expressly approves distributor participation in the United States Department
  of Agriculture's Rural Economic Development Loan and Grant Program, and
  (2) consideration of Volunteer's capital credit allocations is inherent in TVA's revised retail
  ratemaking and approval process.

  See Appendix B for Volunteer's complete response and Appendix C for TVA's complete
  response.

Auditor's Response
  Volunteer did not provide any additional information regarding the three recommendations
  it disagreed with to cause us to change our recommendations. We concur with the actions
  taken and/or planned to be taken by TVA in regard to our recommendations.


                                                                                           Page iii
Office of the Inspector General                                                                   Audit Report


BACKGROUND
Volunteer Energy Cooperative is a distributor for Tennessee Valley Authority
(TVA) power based in Decatur, Tennessee, with revenues from electric sales of
approximately $200 million in fiscal year (FY) 2010. Prior to April 1, 2011,1 TVA
relied on distributors to self-report customer usage and subsequently the amount
owed to TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classes are various rate
classifications based on the customer type and usage. Table 1 shows the
customer mix for Volunteer as of June 2010.

                           Volunteer's Customer Mix as of June 2010
                                               Number of                                     Kilowatt
        Customer Classification                                       Revenue
                                               Customers                                    Hours Sold
    Residential                                        93,624           $132,733,037         1,459,542,347
    General Power – 50 Kilowatt (kW)
                                                       15,354              19,216,270          180,001,111
    and Under (Commercial)
    General Power – Over 50 kW
                                                          849              44,296,524          561,375,355
    (Commercial or Manufacturing)
    Street and Athletic                                    87                 700,716             5,780,512
                       2
    Outdoor Lighting                                      382               2,718,064           26,564,036

     Total                                           110,296            $199,664,611         2,233,263,361
                                                                                                      Table 1

TVA's distributors are required to establish control processes over customer
setup, rate application, and measurement of usage to ensure accurate and
complete reporting to TVA. Volunteer, like many other distributors, outsources its
billing and invoice processing to a third-party processor, National Information
Solutions Cooperative (NISC). Volunteer uses NISC systems to establish and
set up new customers, input customer meter information, perform the monthly
billing process, and maintain customer account information. Additionally, NISC
provides Volunteer with management reporting capabilities (e.g., exception
reports) designed to ensure the accuracy and completeness of the customer
invoice and Schedule 1 provided to TVA. All other accounting and finance
responsibilities are handled by Volunteer, which has a Board of Directors who
provide oversight and a President and management team who manage the daily
activities.



1
     On April 1, 2011, TVA moved from distributors self-reporting customer usage to billing distributors based
     on actual energy and demand takings using meter readings from the wholesale delivery points.
2
     The ―Number of Customers‖ represents those customers who only have Outdoor Lighting accounts with
     Volunteer at June 30, 2010. In addition, another 27,801 customers had Outdoor Lighting accounts as
     well as accounts for other services. However, the totals for ―Revenue‖ and ―Kilowatt Hours Sold‖ include
     both categories of Outdoor Lighting customers.
Audit 2010-13285                                                                                       Page 1
Office of the Inspector General                                                                     Audit Report


During the audit period, Volunteer also operated a natural gas division and a
wholly owned propane subsidiary.

As of June 30, 2010, Volunteer had a 3.52 percent cash ratio before considering
planned FY 2011 capital expenditures3 and a negative 2.09 percent cash ratio
after considering planned FY 2011 capital expenditures, which is below TVA's
established guidelines for an adequate cash ratio of 5 to 8 percent.4 Specifically,
Volunteer had $6,308,839 in cash and cash equivalents and $10,052,125 in
planned capital projects for FY 2011 that would result in a negative $3,743,206
cash balance (see Table 2 below).

         Volunteer's Cash Accounts Compared to Planned Capital Expenditures
                                    Cash and Cash                                        Reserve After
                                                             FY 2011 Planned
                                    Equivalents at                                      Planned Capital
                                                           Capital Expenditures
                                    June 30, 2010                                        Expenditures
    Amount                            $6,308,839                $10,052,125               ($3,743,206)
    Cash Ratio Percentage               3.52%                                               (2.09)%
                                                                                                    Table 2

According to TVA records, as of our audit period, Volunteer was approved for
rate increases in 2005, 2006, and 2007. Table 3 shows the rate increases
received by Volunteer and the cash position and cash ratio at June 30 prior to the
effective date of the rate change.

                 Volunteer's Rate Increases, Cash Position, and Cash Ratio

        Cash on Hand                   Cash and Cash                         Rate Increase
                                                                                              6
                                                    5
      Equivalent to an 8%               Equivalents              Change in
          Cash Ratio                   and Cash Ratio                            Percent Effective Date
                                                                 Revenue
                                          $3,366,157
           $11,628,673                                          $6,721,467        4.89%           10/01/2005
                                          (CR = 2.32%)
                                          $1,679,054
           $12,490,818                                           $921,460         0.67%           10/01/2006
                                          (CR=1.08%)
                                          $4,346,722
           $13,035,664                                          $2,098,945        1.19%           10/01/2007
                                         (CR=2.67%)
                                                                                                       Table 3




3
     Volunteer planned $12,052,125 in capital expenditures for FY 2011 with the intent to pay for these
     expenditures from cash reserves; however, as of April 2011, Volunteer had used $2 million in Rural
     Utilities Service loans to finance capital expenditures. We removed the $2 million financed through RUS
     from our cash ratio analysis.
4
     TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
     calculated as follows:                          Cash + Cash Equivalents______________________
                              Total Variable Expenses (Operations and Maintenance + Purchased Power)
5
     The cash and cash equivalents and cash ratio were computed based on information from Volunteer’s
     annual report as of June 30 prior to the effective date of the rate increase.
6
     These are the rate increases enacted by the distributor. These increases do not include any rate
     increases or decreases made by TVA, including Fuel Cost Adjustments, which were passed through by
     the distributor to the customer.
Audit 2010-13285                                                                                         Page 2
Office of the Inspector General                                                                 Audit Report


Discussions with Volunteer management indicated its operating philosophy is
generally conservative. Volunteer prefers to keep a low debt to cash ratio, but
management is comfortable entering into debt through Rural Utilities Services
loans, where appropriate. Volunteer's goal is to maintain cash on hand equivalent
to 1 month's power bill.

FINDINGS
Volunteer generally complies with the contract provisions for (1) proper reporting
of electric sales and (2) nondiscrimination in providing power. However, we noted
instances of noncompliance with other provisions of the power contract. The most
important instances were related to use of electric system revenues and customer
classification. In relation to the use of electric system revenues, Volunteer
(1) pledged electric funds to guarantee United States Department of Agriculture
Rural Development7 (Rural Development) loans to customers, (2) leased-to-own
diesel generators on behalf of a customer, (3) used electric funds to pay operating
expenses of nonelectric businesses, (4) invested electric funds in nonelectric
businesses, and (5) pledged electric funds to guarantee loans for nonelectric
businesses. In the area of customer classification, Volunteer (1) incorrectly
classified approximately 8 percent of commercial accounts identified for follow-up
review as residential, (2) did not use contract demand8 to classify General Power
Rate – Schedule GSA customers, and (3) did not follow TVA guidance requiring
documentation and maintenance of an evaluation explaining why a demand meter
was not needed for customer accounts with usage exceeding 25,000 kilowatt
hours (kWh). Other areas for improvement in contract compliance were noted
regarding calculation of customer bills and financial reporting to TVA. We also
identified areas where internal controls could be strengthened.

Finally, we identified three areas where TVA's oversight of distributors could be
enhanced. Two areas identified are new oversight issues, and the remaining
issue has been reported in previous Office of the Inspector General (OIG)
distributor audit reports. TVA has agreed to take corrective action on this issue.




7
    Rural Development is a division of the United States Department of Agriculture that administers the Rural
    Economic Development Loan and Grant Program.
8
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as ―the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.‖
Audit 2010-13285                                                                                      Page 3
Office of the Inspector General                                                                    Audit Report


EXPENDITURES OF ELECTRIC SYSTEM REVENUES DID NOT
COMPLY WITH POWER CONTRACT
We found Volunteer (1) pledged approximately $1.3 million of electric funds to
guarantee Rural Development loans to customers, (2) used approximately
$347,000 of electric funds to lease-to-own diesel generators on behalf of a
customer, (3) used approximately $339,000 of electric funds to pay operating
expenses of nonelectric businesses, (4) invested approximately $36,870 of
electric funds in a nonelectric business, and (5) pledged $700,000 of electric
funds to guarantee loans for nonelectric businesses. These uses of electric funds
fall outside the allowed uses under the power contract provisions discussed
below. We estimate the total electric funds at risk9 at June 30, 2010, to be
$2, 672,976, which would reduce the cash ratio from 3.52 percent before planned
FY 2011 capital expenditures to 2.03 percent.

Section 6 of the power contract, "Use of Revenues," defines approved uses of
revenues from electric system operations, including any surplus, as: (1) operating
expenses, (2) debt service, (3) reasonable reserves for renewals, replacements,
and contingencies and cash working capital adequate to cover operating
expenses for a reasonable number of weeks, and (4) new electric system
construction or the retirement of debt prior to maturity. In addition, Section 1(a) of
the power contract, "Schedule of Terms and Conditions," prohibits furnishing,
advancing, pledging, lending, or otherwise diverting electric system funds and
revenues to nonelectric purposes.

Electric Funds Pledged to Guarantee Rural Development Financing to
Customers
At June 30, 2010, Volunteer had pledged approximately $1.3 million in electric
system funds to guarantee Rural Development financing to customers. This
amount included approximately $1.1 million that Volunteer is currently repaying
to Rural Development on behalf of one customer who defaulted on two
intermediary loans in November 2008 and approximately $188,000 for grant
funds loaned to customers.

Volunteer uses Rural Development to provide economic development loan funds
to customers in its service area. Rural Development provides intermediary loans
and grants to Volunteer as economic development funds. Intermediary loans are
funded by Rural Development and loaned to Volunteer who then reloans the
funds to a customer. To obtain an intermediary loan, a customer must apply for
the loan with Rural Development by answering a series of questions, such as how
many jobs will be created, location of the project, unemployment rate of the
location, etc. Rural Development then evaluates the application by assigning
points to the customer's answers. If the total points assigned to the application
exceed the Rural Development threshold for lending, the customer is approved for

9
    We consider electric funds at risk to be revenues of the electric system that are or could be diverted for
    nonelectric purposes in violation of the power contract.
Audit 2010-13285                                                                                         Page 4
Office of the Inspector General                                          Audit Report


the loan, and the funds are dispersed to the intermediary. The intermediary, in
this case Volunteer, guarantees the loans by accepting the loan funds and then
reloaning the funds to the customer.

In addition to the Rural Development intermediary loan program, Volunteer
receives economic development funds through Rural Development grant
programs. The grant programs distribute a set amount of money to a distributor
who then loans the money to customers in the service area for economic
development. As the customers repay the loaned amounts, new loans to other
customers are made to continue using the grant funds for economic development.
Volunteer currently has approximately $188,000 in grant funds loaned to
customers for economic development purposes. Rural Development does not
require the grant funds to be repaid until the distributor no longer operates an
economic development program. In the event a customer defaults on a loan
using grant funds, the distributor would be responsible to repay the outstanding
obligation if Rural Development determines the distributor had not performed
adequate due diligence. Rural Development does not determine the adequacy of
the distributors' due diligence until a customer defaults on loaned grant funds.
Until Rural Development determines differently, we consider Volunteer to have
pledged electric system funds to guarantee all outstanding loans made from grant
funds. For more information, see further discussion on the due diligence process
later in the report.

As stated above, Section 1(a) of the power contract, "Schedule of Terms and
Conditions," prohibits pledging electric funds to guarantee loans for other
distributor operations, and no other section of the power contract specifically
allows electric system funds to be used for economic development projects.
There is a significant risk a court would find the pledging of electric funds to
guarantee loans for customers is not permitted under the contract because (1) the
power contract prohibits pledging electric funds to guarantee loans to nonelectric
operations and (2) there is no specific language in the power contract allowing
electric system funds to be used for economic development projects. However,
according to TVA management it is a common practice for cooperatives to use
electric system funds to guarantee Rural Development financing for customers.
In addition, during another OIG distributor review, we noted a distributor contract
with TVA that included a section outlining TVA approval of a set amount of the
electric system's funds that could be used each year to loan electric system funds
to customers for economic development projects.

Electric Funds Used to Purchase Generators for Customer
We found Volunteer used approximately $347,000 in electric funds for lease
payments and operating costs associated with maintaining generators at a
customer location. In September 2003, Volunteer entered into an agreement to
lease-to-own four (two megawatt) diesel generators. These generators were
installed at a customer's location, and Volunteer subleased the generators to this
customer with an option to purchase.


Audit 2010-13285                                                              Page 5
Office of the Inspector General                                                                   Audit Report


As stated above, Section 6 of the power contract allows a distributor to use
electric revenues for certain purposes for the benefit of the electric system. The
use of electric funds related to the generators is not provided for under Section 6
of the power contract.

Volunteer's agreement with the customer required a monthly payment of $29,300,
which included Volunteer's lease obligation10 and executory costs. Volunteer
reduced the customer's lease payment at the customer's request from $29,300 to
$10,000 per month from January 2009 through the end of our audit period at
June 2010, resulting in approximately $347,000 of unrecovered costs incurred by
Volunteer for the lease, operation, and maintenance of the generators during the
audit period. Volunteer personnel stated the agreement with the customer was
designed for Volunteer to break even. According to Volunteer personnel, the
customer requested the lowered payment due to economic hardship, and
Volunteer would eventually recover the difference by extending the customer's
lease. Volunteer provided an agreement dated January 2009 to lower the
monthly payment to $10,000 through July 2009 and extend the lease term to
compensate for the six months of lowered payments. We were provided no other
documentation of amended lease agreements with the customer showing lowered
payments between August 2009 and June 2010 or subsequent extensions of the
lease term. The lease payment was still $10,000 per month when we concluded
our site visit in June 2011.

Electric Funds Used to Subsidize Operating Expenses of Nonelectric
Businesses
We found at June 30, 2010, Volunteer had paid approximately $339,000 in
operating expenses during the audit period on behalf of the natural gas division.
The natural gas division operated at a loss in both FYs 2009 and 2010. According
to Volunteer personnel, the natural gas division operated at a loss for years.
During this period the electric system covered operating obligations, including
loan and line of credit payments and recorded the amounts as a receivable from
the natural gas division. Currently, the natural gas division is still operating at a
loss and unable to repay Volunteer for expenses paid on its behalf during the
audit period.

TVA has allowed distributors to invest portions of their reasonable reserves in
other operations with TVA approval; however, we could find no evidence of a
loan between the electric system and natural gas division or TVA approval of
Volunteer's investment of its reasonable reserves to pay for operating obligations
of nonelectric businesses.




10
     Volunteer entered into a lease-to-own agreement with a lending company for the four generators on
     behalf of the customer. Volunteer’s lease will expire in 2018 with the option to purchase the generators
     at that time. Volunteer’s monthly lease obligation is $17,580.45.
Audit 2010-13285                                                                                       Page 6
Office of the Inspector General                                                               Audit Report


Electric Funds Invested in a Nonelectric Business
We found at June 30, 2010, Volunteer had invested approximately $36,870 in the
nonelectric propane business. Volunteer currently operates a wholly owned
propane subsidiary and initially invested approximately $36,870 in the propane
company.

TVA has allowed distributors to invest their reasonable reserves in other
operations with TVA approval; however, we could find no evidence of TVA
approval of Volunteer's investments in its nonelectric businesses.

Electric Funds Pledged to Guarantee Loans for Nonelectric Businesses
Volunteer guaranteed $700,000 of financing for its propane and natural gas
businesses as of June 30, 2010. Volunteer guaranteed a $450,000 loan for the
propane business and a $250,000 line of credit for the natural gas division. In
the event the propane or natural gas businesses default on the financing
arrangement, the lending company can require Volunteer to repay the
outstanding balance.

As stated above, Section 1(a) of the power contract, "Schedule of Terms and
Conditions," prohibits pledging electric funds to guarantee loans for other
distributor operations.

Total Electric Funds at Risk and Impact on the Cash Ratio
We found the total electric funds at risk described above were $2,672,976, which
reduced the cash ratio from 3.52 percent before planned FY 2011 capital
expenditures to 2.03 percent. This indicates that, in the absence of any
additional capital improvements to the electric system or any unforeseen
circumstance, if the distributor were required to satisfy all of the debts it has
guaranteed and was unable to recoup all funds invested, its cash position would
result in a cash ratio of 2.03 percent, which is below TVA's established guidelines
for adequate cash reserves.

IMPROPER REPORTING OF ELECTRIC SALES AND/OR
POTENTIAL DISCRIMINATION IN PROVIDING POWER TO
CUSTOMERS
During our review of Volunteer's billing data, we identified two customer
classification issues and one metering issue that could impact the (1) proper
reporting of electric sales and/or (2) ability to ensure nondiscrimination in
providing power to members of the same rate class.11 The issues identified were
(1) customer accounts incorrectly classified as residential, (2) not using contract
demand to classify General Power Rate – Schedule GSA customers, and
(3) not documenting and maintaining records of evaluations explaining why a
demand meter was not installed for customer accounts with usage exceeding the

11
     Section 5 Resale Rates subsection (a) of the power contract between TVA and Volunteer dated
     September 15, 1975, states ―…power purchased hereunder shall be sold and distributed to the ultimate
     consumer without discrimination among consumers of the same class and that no discriminatory rate,
     rebate, or other special concession will be made or given to any consumer, directly or indirectly.‖
Audit 2010-13285                                                                                   Page 7
Office of the Inspector General                                                                       Audit Report


recommended 25,000 kWh. The second issue above was the result of a
conscious decision by Volunteer management not to follow provisions of the
power contract. We were unable to estimate the monetary effect of all the issues
we identified because in some instances information was not available. However,
for those instances where estimates were made, the monetary effect on Volunteer
and TVA would not be significant. Correcting classification and metering issues is
important to ensure all customers are placed in the correct rate classification and
charged the same rate as other customers with similar circumstances.

Customer Accounts Misclassified as Residential
We found a total of 456 customer accounts misclassified under the Residential
Rate – Schedule RS12 that should have been classified under the General Power
Rate – Schedule GSA.13 The GSA schedule is divided into three parts—Part 1,
Part 2, and Part 3—based on electric usage and demand. We noted 5,711
customer accounts that appeared to be improperly classified based on customer
name and/or the existence of multiple accounts at the same address. We
requested Volunteer review these accounts. They determined 456 customer
accounts (7.98 percent) were incorrectly classified. The monetary impact of the
classification issues detailed below would not be significant to Volunteer or TVA.
Specifically, we noted:

     247 customer accounts were separately metered structures, such as a barn,
      garage, well, pump, etc., at residential locations. Schedule RS applies "only
      to electric service to a single-family dwelling." Because a well pump is not a
      single-family dwelling, the pump does not qualify for the residential rate.
     208 customer accounts were commercial businesses.
     1 customer account was lighting to a railroad crossing signal.

According to Volunteer personnel, all 456 customer accounts were reclassified
from residential to the appropriate part of the GSA schedule based on the
customer's energy and demand takings. Volunteer did not provide a response
for 1,166 of the 5,711 customer accounts (20.42 percent) that appeared to be
improperly classified.
12
     Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
     ―This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
     served through the same meter), where the major use of electricity is for domestic purposes such as
     lighting, household appliances, and the personal comfort and convenience of those residing herein.‖
13
     Under the General Power Rate – Schedule GSA, customers are classified based on the following
     requirements:
      GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
         highest billing demand during the latest 12-month period is not more than 50 kilowatts (kW) and
         (b) the customer’s monthly energy takings for any month during such period do not exceed
         15,000 kilowatt hours (kWh).
      GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
         highest billing demand during the latest 12-month period is greater than 50 kW but not more than
         1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
         month during such period exceed 15,000 kWh.
      GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
         billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13285                                                                                            Page 8
Office of the Inspector General                                                               Audit Report


Customer Accounts Misclassified Between Parts of the GSA Schedule
According to Volunteer personnel, Volunteer management decided not to follow
provisions of the GSA schedule that require customers to be classified based on
contract demand, rather, they classified customer accounts using actual demand.
We reviewed all customer accounts with contract demand values in the billing
system and found 3 of the 16 (18.75 percent) customer accounts identified were
misclassified between the three parts of the GSA schedule. Specifically, we
found:

    2 customer accounts should have been classified as GSA Part 3 rather than
     GSA Part 1 or Part 2 based on contract demand.
    1 customer account should have been classified as GSA Part 2 rather than
     GSA Part 1 based on contract demand.

The GSA schedule classifies customers within the three parts of the schedule
based on the higher of (1) currently effective contract demand or (2) the highest
billing demand in the last 12 months. Volunteer's policy was to not enter contract
demand values for GSA customers in the billing system. According to Volunteer
personnel, in April 2011, Volunteer began entering contract demand in the billing
system for all new GSA customers with a contract. However, Volunteer has not
entered contract demand in the billing system for existing GSA customers with a
contract established prior to April 2011. Without a contract demand value
entered, GSA customers with a contract are classified based on actual demand
takings. We estimated the effect of these misclassifications, and they were not
significant to Volunteer or TVA.

Metering Issue
In addition to the customer classification issues, our review of billing agency data
noted one issue related to metering of customers at Volunteer. Specifically, we
found 34 customer accounts classified as GSA Part 2 that had energy usage in
excess of 25,000 kWh but were not measured for demand.14 According to
Volunteer management, customer accounts are evaluated for a demand meter
once the account reaches 20,000 kWh; however, the practice is informal and no
documentation of the evaluations was provided by Volunteer. Under Part 2 of
the GSA schedule and the Wholesale Power Rate – Schedule WS with TVA,
there would be no effect on the revenues for TVA or the distributor unless the
customer demand exceeded 50 kW. Without demand meters in place or
evidence indicating other circumstances exist that would prevent a customer
from exceeding demand of 50 kW, we could not determine if these 34 customers
would have exceeded 50 kW; therefore, we were unable to estimate the
monetary effect.




14
   In February 2010, in response to a finding in a previous OIG distributor audit report, TVA issued
   guidance to distributors in Tennessee on how to evaluate whether a demand meter is needed when a
   customer’s usage reaches 25,000 kWh.
Audit 2010-13285                                                                                     Page 9
Office of the Inspector General                                                       Audit Report


OTHER ISSUES
We identified ten additional areas where Volunteer (1) was not meeting power
contract requirements with TVA or (2) could strengthen its internal controls.
Other power contract compliance issues identified were: (1) some retail rates in
the billing system did not match TVA approved retail rates, (2) the Enhanced
Growth Credit (EGC) was incorrectly calculated for two customers, (3) the
minimum bill practice for GSA customers differed from the minimum bill provision
in the power contract, (4) billing system programming for GSA customer
minimum bill calculation differed from the power contract minimum bill provision
and the practice described by Volunteer's President, (5) excess demand charges
were not automatically calculated in the billing system for GSA customers, and
(6) allocations between electric and nonelectric businesses were not approved
and did not consider all shared costs and expenses. Volunteer's internal controls
could be strengthened related to (1) due diligence in lending process,
(2) customer contracts maintenance, (3) customer identification on contract
documentation, and (4) accuracy of contract demand in the billing system.
Details of the ten areas are discussed below.
Retail Rates in Billing System Did Not Match TVA Approved Retail Rates
We found retail rates charged to customers for some rate classifications did not
match the TVA approved retail rates. Specifically, we found incorrect rates
applied to (1) Fuel Cost Adjustment (FCA) amounts for various rate classifications
for 3 months of the audit period, (2) GSA Part 3 demand charges for 9 months of
the audit period, and (3) the customer charge for outdoor lighting for 24 months of
the audit period. According to Section 6 of the power contract's "Schedule of
Terms and Conditions," the distributor shall adjust the charges in the resale
schedules applicable to its customers in accordance with TVA issued adjustment
addendums.15
Incorrect FCA amounts resulted in customers not receiving retail credits of
approximately $11,354. According to Volunteer personnel, 2 months of amounts
incorrectly entered into the billing system were due to keying errors. The other
month where the FCA amounts were incorrect was due to Volunteer personnel
entering FCA information intended for another distributor. TVA originally provided
another distributor's retail rates to Volunteer. According to Volunteer personnel,
TVA was notified, and the correct Volunteer retail rates were provided; however,
the correct Volunteer retail rates were not entered into the billing system.
We also found the GSA Part 3 demand charge for greater than 2,500 kW was
incorrect for 9 months of the audit period. The TVA approved rate was $15.99;
however, Volunteer charged $15.59, which is a difference of 40 cents. The
incorrect demand charge did not result in any lost revenue to Volunteer as no
GSA Part 3 customers exceeded 2,500 kW in demand during the 9 months.
According to Volunteer personnel, the incorrectly entered demand charge was
due to a keying error in October 2009 and continued until rates changed in
April 2011.
15
     Adjustment addendums provide TVA approved rate adjustments to the distributor.
Audit 2010-13285                                                                         Page 10
Office of the Inspector General                                        Audit Report


In addition, we found the customer charge for street and athletic lighting was
incorrect for the 24-month audit period. The TVA approved rate was $10.20;
however, Volunteer charged $14, which is a difference of $3.80. According to
Volunteer personnel, a request was approved by TVA to change the customer
charge to $14 in 2005 when Volunteer revised the GSA Part 1 customer charge.
This change was not reflected in the Outdoor Lighting schedule within the power
contract. TVA investigated this issue and stated the documentation from
Volunteer requesting the change to the Outdoor Lighting customer charge could
not be found; however, TVA stated (1) the documentation requesting the change
to the GSA Part 1 customer charge was found and (2) noted the change had
been made in the GSA schedule. TVA personnel also stated TVA is currently
working with Volunteer to submit the paperwork for the request to change the
Outdoor Lighting customer charge.

During the exit conference on August 18, 2011, Volunteer personnel stated as of
May 2011 all rates are being compared by two Volunteer employees to verify the
rates approved by TVA are correctly entered into the billing system.

EGC Not Correctly Calculated
For the month of June 2009, the EGC was incorrectly manually calculated for two
of seven customers. Volunteer used the incorrect amount from the declining
credit schedule to calculate the customers' EGCs resulting in Volunteer crediting
the customers approximately $332 too much. As a result, Volunteer received a
related wholesale EGC credit of 110 percent of the amount applied to customer
bills of approximately $365 too much.

During the exit conference on August 18, 2011, Volunteer personnel stated the
billing system programming had been revised in May 2011 to include an
automatic calculation of the EGC.

GSA Customer Minimum Bill Practice Differs From Power Contract
We found Volunteer's current practice for determining a GSA customer's minimum
bill amount differed from the minimum bill provision in the power contract.
According to the GSA schedule provision in the power contract, a customer's
monthly minimum bill "shall not be less than the sum of (a) the base customer
charge and (b) 1% of the installed cost to the distributor." According to
Volunteer's President, this is not the current practice for determining a GSA
customer's monthly minimum bill, and he was unaware when the method
described in the power contract might have been used at Volunteer. Volunteer's
documented method for calculating a GSA customer's monthly minimum bill
states a customer's minimum bill "shall not be less than the sum of (a) the base
customer charge and (b) $1 per kW of the higher of (i) the customer's currently
effective contract demand or (ii) the highest billing demand in the last 12-month
period."




Audit 2010-13285                                                          Page 11
Office of the Inspector General                                                               Audit Report


GSA Customer Minimum Bills Not Calculated According to Power Contract
or Practice Described by Volunteer President
We found Volunteer's billing system was not calculating GSA customer minimum
bills according to the power contract or the practice described above. According
to NISC, Volunteer elected not to include minimum bill calculations in the billing
system programming for GSA schedule customers; therefore, the billing system
does not automatically calculate a minimum bill for customers based on set
criteria. According to Volunteer personnel, Volunteer uses a field within the
billing system to input a predetermined minimum bill amount for GSA customers.
The predetermined amount is calculated as the customer charge plus $1 per kW
of currently effective contract demand, which does not agree with either the
power contract minimum bill provision or the practice described above. The
billing system compares the customer's calculated bill to the predetermined
minimum bill amount and bills the customer for whichever amount is greater. If a
predetermined amount is not entered into the billing system, a customer would
only be charged the standard customer charge.16

Excess Demand Charges Not Correctly Calculated for GSA Customers
As described on the previous page, Volunteer did not enter contract demand in
the billing system for GSA customers during the audit period. As a result, the
billing system does not correctly calculate excess demand charges for GSA Part
3 customers when appropriate. The GSA schedule states that Part 3 customers
will incur excess demand charges when the "customer's billing demand exceeds
the higher of 2,500 kW or its contract demand." Without a contract demand
entered into the billing system, the billing system cannot determine if excess
demand charges should be applied to a customer's bill. Volunteer added another
field to the billing system to capture contract demand for GSA Part 3 customers
for use in the determination of excess demand charges; however, if a value was
not entered for a customer in this custom field, the excess demand calculation
would not be accurate.

Cost Allocations Not in Place to Adequately Distribute Shared Costs
Cost allocations between Volunteer and other businesses were not made in
accordance with a TVA-approved joint cost study. TVA has never performed a
joint cost study for Volunteer, although Volunteer has made the request to TVA for
a joint cost study. Under the power contract's "Schedule of Terms and
Conditions," Section 1(a), the distributor is allowed to "use property and personnel
jointly for the electric system and other operations, subject to agreement between
Cooperative and TVA as to appropriate allocations."

Volunteer is currently not allocating costs between the electric system and natural
gas business and is only allocating billing costs between the electric system and
propane business. We found the natural gas and propane businesses shared
electric system corporate and customer service personnel; therefore, the natural

16
     The standard customer charge is the amount charged to all GSA customers to receive electric service at
     the customer location. The customer charge amounts for GSA customers range from $14 for GSA Part 1
     customers to $150 for GSA Part 3 customers per month.
Audit 2010-13285                                                                                  Page 12
Office of the Inspector General                                          Audit Report


gas and propane businesses should have allocated costs for payroll, benefits, rent
for office space, supplies, etc. We also found the electric department covered the
entire cost for facility and communication related expenses that were used by
electric system personnel shared with the nonelectric businesses.

Due Diligence in Lending Process Does Not Protect Electric Funds
As described above, Volunteer provided economic development funds to
customers through Rural Development grants and intermediary loans. However,
the responsibility to perform due diligence in lending lies with the distributor.
Volunteer does not currently have a due diligence process beyond management,
the Board, and legal counsel review of the customer's Rural Development loan
application, which does not include an evaluation of the customer financial
position, industry trends, etc. In the event of a customer default on the reloaned
funds, the intermediary (Volunteer) would still owe the balance of the loan made
from Rural Development. In addition, if a customer defaults on a loan using grant
funds, the distributor would be responsible to repay the outstanding obligation if
the distributor had not performed adequate due diligence.

In November 2008, one customer with two loans guaranteed by Volunteer totaling
approximately $1.3 million declared bankruptcy and subsequently defaulted on
the entire outstanding loan balance due to Volunteer. While performing a limited
review of the customer's business plan included in the Rural Development loan
application, we found the defaulted customer's revenues relied heavily on sales to
one company. When this company suspended operations due to prolonged
financial distress, the Volunteer customer could no longer continue operations.
As a result, Volunteer seized the collateralized assets of the defaulted customer
that were declared to be valued at approximately $1.8 million in the August 2007
and June 2008 loan applications. Volunteer received approximately $227,000
(13 percent) of the declared value when it sold the seized assets in January and
May 2010. Volunteer applied the receipts from the sales to the approximately
$1.3 million loan balance to reduce the amount Volunteer was obligated to pay to
approximately $1.1 million. With a more comprehensive due diligence in lending
process, Volunteer could better protect electric system funds during the
intermediary lending process.

Volunteer personnel stated that in the future intermediary loans will no longer be
reloaned directly to customers, rather, Volunteer will reloan the funds to the
customer's county government who will then reloan the funds to the customer.
This practice is designed to add an additional obligated party between Volunteer
and Rural Development should a customer default on an intermediary loan.
Regardless of whom the intermediary loan funds are reloaned to, Volunteer
would still be ultimately responsible for the loaned funds to Rural Development
and, without a more comprehensive due diligence in lending process, electric
system funds would be at a greater risk. Volunteer does not currently have any
intermediary loans other than the two defaulted loans described above.



Audit 2010-13285                                                            Page 13
Office of the Inspector General                                           Audit Report


Volunteer's due diligence related to lending grant funds is limited to executing
Uniform Commercial Code filings and maintaining proper records. Without a
more comprehensive due diligence in lending process, Volunteer could become
responsible for repaying Rural Development for loaned grant funds. This
process should include, at a minimum, reviews of customer's independently
audited financial statements and appraisals of proposed collateral.

Customer Contracts Not Maintained
We reviewed all 21 customer accounts classified as GSA Part 3 or higher and
noted Volunteer did not have a customer contract on file for 4 of the 21 customer
accounts. The GSA schedule from TVA requires all customers who exceed
50 kW per month to sign a formal contract. However, TVA management, in
response to previous OIG distributor audit reports, indicated the threshold of
50 kW for requiring customer contracts was too low. On February 2, 2011, TVA
issued guidance to distributors changing the contract requirement threshold from
50 kW to 1 megawatt with flexibility for distributors to implement a lower limit. The
guidance also stated effective, signed contracts should be retained in customer
files for all customer accounts that meet the threshold requirement. A demand
level of 1 megawatt classifies an account as at least GSA Part 3. Each customer
contract includes a contract demand that is used in placing the customer in the
correct classification. Contract demand is also used in calculating the customer's
billed demand.

Customer Contract Documentation Could Be Improved
One area where internal controls could be strengthened is related to 17 of the 21
GSA Part 3 or higher customer accounts with contracts referred to on the previous
page. Customer contracts reviewed did not clearly identify the customer's
account number or physical location that was applicable to the contract. Some
customers had multiple contracts for multiple meters or locations that were not
easily tied to the billing system data. According to Volunteer personnel during the
exit conference on August 18, 2011, new contracts show the customer's account
number but customer contracts already in existence were not updated to include
the customer's account number.

Contract Demand in Billing System Did Not Agree With Contract
Another area where internal controls could be strengthened is entering contract
demand in the billing system. We identified six customer accounts where the
contract demand per the contract did not agree with the contract demand entered
into the billing system. Specifically, we found none of the 6 accounts had contract
demand entered into the billing system. Contract demand should be entered into
the billing system at the agreed-upon contract amount to ensure proper
calculation of the customer's bill for the monthly demand charge and calculating
the customer's minimum bill.




Audit 2010-13285                                                             Page 14
Office of the Inspector General                                                                   Audit Report


TVA OVERSIGHT OPPORTUNITIES
We identified three areas where TVA's oversight of the distributors could be
enhanced. Two areas identified are new opportunities to enhance TVA's
oversight of the distributors. Specifically, we found TVA has not: (1) provided
guidance to distributors regarding a proper due diligence process for loaning
Rural Development funds to customers for economic development and
(2) included whether a cooperative has performed capital credit allocations17 as
part of the analyses performed in the retail rate setting and approval process. The
remaining issue, regarding the lack of a current joint cost study, has been
reported in previous OIG distributor audit reports. TVA has agreed to take
corrective action on this issue. These three areas are described in detail below.

No Guidance on Proper Due Diligence for Loaning Rural Development
Funds
If TVA continues to allow distributors to pledge electric system funds as
guarantees for customer economic development loans with Rural Development,
TVA could improve oversight of distributors by providing guidance to better
protect electric system funds through proper due diligence when loaning Rural
Development funds. As stated above, due diligence when lending Rural
Development funds is the responsibility of the distributor. We noted Volunteer
was not provided with any guidance from TVA, and TVA management confirmed
no guidance was provided to distributors regarding a proper due diligence
process for loaning Rural Development funds to customers. If a distributor's
power contract allows loans through Rural Development or TVA approves a
distributor to lend Rural Development funds, it is important for TVA to provide
guidance to distributors on what should be included in a comprehensive due
diligence process to better protect electric system funds during the loaning of
Rural Development funds.

No Inclusion of Capital Credit Allocations in Rate Analysis
Another area where TVA could improve oversight of distributors is by including
whether a cooperative has performed capital credit allocations18 as part of the
analyses performed in the retail rate setting and approval process. According to
Volunteer personnel, Volunteer had performed a capital credit allocation as
required by the Internal Revenue Service to maintain its nonprofit status but had
not paid out any capital credits to cooperative members. According to TVA
management, distributors are allowed to perform capital credit allocations but are
not allowed to pay capital credits. Instead, distributors are expected to use the
excess funds to reduce rates or improve the electric system. In addition, TVA
management indicated consideration of whether a capital credit allocation has

17
     Capital credits are similar to dividends that are payable to members of a cooperative. Capital credits
     must be allocated when a cooperative achieves an equity level defined by RUS. TVA prohibits capital
     credit allocations to be paid to members and instead encourages cooperatives to reinvest in the electric
     system or lower electric rates.
18
     A capital credit allocation is the process that is performed to take the margins for a calendar year and
     spread them proportionally to the members during the year margins occurred.
Audit 2010-13285                                                                                      Page 15
Office of the Inspector General                                          Audit Report


been made was not included in the retail rate setting and approval process.
Including such consideration in the retail rate setting and approval process could
enhance the analyses and may provide additional insight on the appropriateness
of a rate increase or decrease.

We also noted one issue for Volunteer that was reported in previous OIG
distributor audit reports. Specifically, we noted TVA has never performed a joint
cost study for Volunteer. The Accountants' Reference Manual states a joint cost
study should be performed every three to four years or when a significant change
occurs. In response to the previous reports, TVA agreed to take corrective
actions on this issue.

Full discussion of the previously reported issues and TVA's planned actions can
be found in prior OIG distributor audit reports on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
Volunteer to improve compliance with the contract provisions and/or strengthen
internal controls. Specifically, Volunteer should:

1.   Discontinue or obtain TVA approval for the practice of pledging electric funds
     to guarantee Rural Development loans to customers.

     Volunteer's Response – Volunteer disagreed with this recommendation and
     stated the TVA OIG did not provide written documentation to substantiate its
     statement that Rural Development could, under a very unlikely circumstance,
     require Volunteer to repay the grants. See Appendix B for Volunteer's
     complete response.

     TVA Management's Comments – TVA management agreed with the
     recommendation and stated they plan to recommend formal approval by the
     TVA Board of a Use of Revenues policy that expressly approves distributor
     participation in the United States Department of Agriculture (USDA) Rural
     Economic Development Loan and Grant Program. See Appendix C for
     TVA's complete response.

     Auditor's Response – As stated in the body of the report, loans and grants
     to customers are not allowed under the terms of the current power contract.
     However, if the TVA Board approves a policy as described in TVA
     management's response, this practice may no longer be a violation of the
     power contract provisions.

     In regard to Volunteer's statement that the OIG did not provide
     documentation to substantiate its statement that Rural Development could
     require the distributor to repay grants, the documentation was actually
     provided to the OIG by Volunteer. Specifically, Volunteer management
Audit 2010-13285                                                            Page 16
Office of the Inspector General                                           Audit Report


     provided the OIG with an e-mail from its Rural Development Area Specialist
     that stated, "If our agency proved that due diligence was not performed by
     the cooperative then they would be liable for the entire amount."

2.   Discontinue the use of electric funds for unapproved purposes, such as the
     leasing of diesel generators to customers.

     Volunteer's Response – Volunteer disagreed that electric funds had been
     used for this purpose and stated the TVA OIG failed to do its due diligence in
     accounting on this issue. Volunteer further stated it had provided the TVA
     OIG with proper accounting and amounts to verify that no electric funds have
     been used for this purpose and the TVA OIG chose to ignore this
     information. In addition, Volunteer (1) provided a letter from an accounting
     firm to verify that no electric funds had been used on this project and
     (2) stated it has an agreement with this customer to reimburse Volunteer for
     the balance of the cost of the generators if the plant were to shut down. See
     Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed distributors
     should not use electric funds for unapproved purposes. TVA management
     stated it is still investigating the facts surrounding the lease of the diesel
     generators to determine if other electric rate payers are bearing any undue
     risk for the lease that amounts to discrimination in favor of the leasing
     customer. TVA further stated that if it finds any such discrimination,
     appropriate action will be taken to achieve power contract compliance. See
     Appendix C for TVA's complete response.

     Auditor's Response – As stated at the beginning of our report, our audit
     covers the period of July 2008 through June 2010. During that period,
     Volunteer reduced the mentioned customer's monthly lease payment from
     $29,300 (an amount that Volunteer management told us would result in a
     break-even situation) to $10,000 (an amount that was $7,580 less than
     Volunteer's monthly lease payment for the generators, not including
     operation and maintenance costs). During our audit period, the lower
     monthly lease payment for the customer was in place for 18 months.

     With regard to Volunteer's statement that its accounting firm verified that no
     electric funds had been used on this project, the letter from Volunteer's
     accounting firm stated, "We have not audited or reviewed the foregoing
     information, and consequently take no responsibility for the underlying
     amounts, assumptions, or projected values." Both Volunteer and its
     accounting firm made assumptions regarding future payment in arriving at
     their conclusions; the OIG made no assumptions and based its calculations
     on comments from Volunteer management and actual lease documentation.
     (Also, since completion of our audit field work, it has been reported that the
     customer in question will close its doors by the end of the year.)


Audit 2010-13285                                                              Page 17
Office of the Inspector General                                            Audit Report


     The OIG concurs with TVA's planned action to investigate the facts
     surrounding the lease of the diesel generators to determine if other electric
     rate payers are bearing any undue risk for the lease that amounts to
     discrimination in favor of the leasing customer.

3.   Obtain TVA approval for investments of reasonable reserves in nonelectric
     businesses.

     Volunteer's Response – Volunteer agreed and stated it will work with TVA
     to resolve. See Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA agreed with the recommendation
     and stated that in relation to recommendations 3, 4, 5, and 6, TVA will
     approve investments of electric system reserves only where the investments
     are made in accordance with TVA guidelines for such investments. TVA
     further stated, where any electric system assets are used or pledged in
     violation of the requirements of the power contract, TVA will seek to have the
     distributor promptly remedy those violations as soon as possible and in a
     manner that best protects the electric rate payers in the circumstances. See
     Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

4.   Obtain repayment of balances due on loans from the electric system to
     nonelectric businesses or approval from TVA to invest reasonable reserves
     through loans to nonelectric businesses.

     Volunteer's Response – Volunteer agreed with the recommendation and
     stated it will work with TVA to obtain approval to invest in nonelectric
     businesses. See Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA agreed with the recommendation
     and stated it will take the actions discussed in 3 above. See Appendix C for
     TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

5.   Execute loan documents between the electric department and nonelectric
     businesses for any TVA approved investments of reasonable reserves as
     loans to nonelectric businesses. Loan documents should include interest
     rates to be paid by the nonelectric businesses, terms for payback, recourse
     available to the electric department if the nonelectric business is unable to
     make payments on a timely basis, and any other protections available to the
     electric rate payer.




Audit 2010-13285                                                              Page 18
Office of the Inspector General                                             Audit Report


     Volunteer's Response – Volunteer agreed with this recommendation and
     stated it will work to have these documents in place by October 2012. See
     Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA agreed with the recommendation
     and stated it will take the actions discussed in 3 above. See Appendix C for
     TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

6.   Discontinue the practice of pledging electric system assets as guarantees for
     nonelectric businesses and have the electric department removed from
     current loans as a guarantor.

     Volunteer's Response – Volunteer stated it does not plan to start any
     additional nonelectric businesses but stated it is not feasible to have the
     electric system assets removed from current loan guarantees at this time.
     However, Volunteer agreed that if in the future cash flows improve for the
     natural gas system, it can explore possible options at that time. See
     Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA agreed with the recommendation
     and stated it will take the actions discussed in 3 above. See Appendix C for
     TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

7.   Implement procedures to assist in identifying residential accounts that need
     to be reclassified as commercial when service starts or changes to a
     nonresidential type (i.e., business or a separately metered structure).

     Volunteer's Response – Volunteer agreed and stated its staff will review
     reports on a quarterly basis that may reflect multiple residential accounts for
     one location address or corporate accounts with residential classifications.
     See Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed the power
     contract requires consistent classification of customers in accordance with
     the applicable rate schedule and noted the distributor will work with its billing
     service provider to resolve misclassifications where they exist. See
     Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.




Audit 2010-13285                                                                Page 19
Office of the Inspector General                                         Audit Report


8.   Review the remaining accounts identified by the OIG as potentially
     misclassified based on customer name and/or the existence of multiple
     accounts at the same address and correct misclassifications where
     applicable.

     Volunteer's Response – Volunteer stated the remaining accounts have
     been reviewed, and the accounts have been reclassified as needed. See
     Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed with the
     recommendation and stated the distributor had investigated potential
     misclassifications identified by the OIG and made corrections where
     necessary. See Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken.

9.   Enter customer contract demand into the billing system for GSA Part 3
     customers and use contract demand in conjunction with peak billing demand
     in a 12-month period to classify GSA Part 3 customers as required by the
     power contract.

     Volunteer's Response – Volunteer agreed with this recommendation and
     stated these issues had already been corrected. See Appendix B for
     Volunteer's complete response.

     TVA Management's Comments – TVA management agreed with the
     recommendation and stated the distributor had entered contract demand into
     the billing system for GSA Part 3 customers and classified customers in
     accordance with the distributor rate schedule. See Appendix C for TVA's
     complete response.

     Auditor's Response – The OIG concurs with the actions taken.

10. Document evaluations of GSA customer accounts for a demand meter when
    energy takings exceed 25,000 kWh in accordance with TVA guidance issued
    in February 2010.

     Volunteer's Response – Volunteer stated it is currently adding additional
     notes to the accounts as they are reviewed and will add additional language
     to the documentation. See Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed the distributor
     should install a demand meter for customers that use greater than
     25,000 kWh per billing period or document the reason whether a demand
     meter is needed. TVA also stated the distributor will review accounts that
     have usage greater than 25,000 kWh to see if they require demand meters.
     See Appendix C for TVA's complete response.

Audit 2010-13285                                                             Page 20
Office of the Inspector General                                           Audit Report


     Auditor's Response – The OIG concurs with the planned actions.

11. Revise the current practice for determining GSA customer minimum bills to
    reflect the minimum bill provision within the GSA schedule of the power
    contract or work with TVA to revise the power contract to reflect a practice
    acceptable to TVA and Volunteer.

     Volunteer's Response – Volunteer stated it had already requested TVA
     change the GSA minimum bill contract language to match Volunteer's
     language and stated that TVA is working on the new contract language. See
     Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed with this
     recommendation and stated they will work with the distributor to remedy any
     noncompliance with the power contract and rate schedule requirements
     regarding minimum bills. See Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

12. Enter customer contract demand into the billing system for all GSA Part 3
    customers and use contract demand in conjunction with peak billing demand
    to apply excess demand charges as required by the power contract.

     Volunteer's Response – Volunteer stated it had already entered the
     contract demand information into its billing system and is working with its
     software vendor, NISC, to implement the excess demand charge. See
     Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed with this
     recommendation and stated the distributor is working with the software
     vendor to make this change. See Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

13. Revise billing system programming to calculate minimum bills for GSA
    customers according to the minimum bill provision within the GSA schedule
    of the power contract or any new provision agreed to by TVA and Volunteer.

     Volunteer's Response – Volunteer stated it is working on implementing this
     programming fix with its software provider, NISC. See Appendix B for
     Volunteer's complete response.

     TVA Management's Comments – TVA management agreed with this
     recommendation and stated the distributor will work with its software vendor
     to make this change. See Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with planned actions.

Audit 2010-13285                                                              Page 21
Office of the Inspector General                                           Audit Report


14. Allocate all shared costs and expenses between the electric system and the
    natural gas and propane businesses based on percentage of use by each
    business.

     Volunteer's Response – Volunteer stated it has been allocating costs
     through a management fee charged to its propane business, and TVA plans
     to have a joint cost study completed by October 2012. See Appendix B for
     Volunteer's complete response.

     TVA Management's Comments – TVA management agreed that the
     allocation of joint costs should be updated and then applied across the
     different divisions that share assets and resources. TVA also stated TVA
     field accountants will complete the study within the next year and work with
     the distributor to agree on and implement any changes required. See
     Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with planned actions.

15. Develop and implement a more comprehensive due diligence in lending
    process to reduce the risk to the electric system when acting as an
    intermediary or providing loans under the Rural Development grant
    programs.

     Volunteer's Response – Volunteer disagreed and stated it already had a
     process in place that requires past financial records, future financial
     projections, business plan, and additional information from the organization
     requesting economic development loans and that the information is reviewed
     by Volunteer management, legal counsel, and the Board of Directors. See
     Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed with the
     recommendation and stated TVA management is working with the
     distributors and the TVA Board to update the policies and processes for Use
     of Revenues as part of the role as regulator effort. TVA also stated
     additional due diligence measures, if any, will be discussed and resolved as
     a part of this effort. See Appendix C for TVA's complete response.

     Auditor's Response – The OIG reviewed customer Rural Development
     applications for loans and grants and noted applications do not include an
     evaluation of the customer financial position, industry trends, independently
     audited financial statements, or appraisals of proposed collateral. Further, in
     November 2008, Volunteer became responsible for repaying approximately
     $1.1 million in debt owed by a customer who declared bankruptcy due to
     financial insolvency. Volunteer made loans to the customer in August 2007
     and June 2008 (just 5 months before the customer declared bankruptcy).



Audit 2010-13285                                                              Page 22
Office of the Inspector General                                            Audit Report


     The OIG concurs with TVA's planned actions and maintains that more
     comprehensive due diligence in lending is needed to reduce the risk to the
     electric system when a distributor acts as an intermediary or provides loans
     under the Rural Development grant programs.

16. Obtain and maintain properly executed effective customer contracts for all
    GSA Part 3 and higher customers.

     Volunteer's Response – Volunteer agreed with this recommendation and
     stated it is continually updating and obtaining new contracts for GSA Part 3
     customers. See Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed with this
     recommendation and stated the distributor will work with GSA Part 3
     customers whose contract demand exceeds 1 megawatt to obtain signed
     contracts. See Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

17. Update existing customer contracts to include additional information to easily
    identify contracts for customers with multiple meters or locations.

     Volunteer's Response – Volunteer stated it made changes to its contract
     format 3 years ago to make the contract easier to identify and that going
     forward this will be covered. See Appendix B for Volunteer's complete
     response.

     TVA Management's Comments – TVA management agreed that it is good
     business practice and stated Volunteer has made changes to its contract
     format for contracts going forward for easy identification. See Appendix C
     for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken.

18. Implement a process to ensure all customers with contracts have the
    appropriate contract demand entered into the billing system and the contract
    demand values in the system agree with the customer's contract.

     Volunteer's Response – Volunteer agreed with this recommendation and
     stated its staff is currently entering all contract demands into the billing
     system. See Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management agreed that the
     distributor should have good internal controls in place that will ensure data is
     correctly entered into the system and stated the distributor will implement a
     process to identify and verify contract demand. See Appendix C for TVA's
     complete response.

Audit 2010-13285                                                               Page 23
Office of the Inspector General                                          Audit Report


     Auditor's Response – The OIG concurs with the planned actions.

The Group President, Strategy and External Relations, should:

19. Discontinue the practice of allowing distributors to pledge electric system
    funds as guarantees for customer economic development loans with Rural
    Development and communicate this to all affected distributors. If TVA
    determines to continue this practice, we recommend the affected distributors'
    power contracts be modified to provide for a designated amount of electric
    system funds that may be pledged for economic development purposes
    annually after adequate due diligence is performed and appropriate
    protections are put in place for the rate payers.

     TVA Management's Comments – TVA management agreed this practice is
     not expressly allowed under the power contract and stated TVA plans to
     recommend formal approval by the TVA Board of a Use of Revenues policy
     that expressly approves distributor participation in the USDA Rural Economic
     Development Loan and Grant Program. See Appendix C for TVA's complete
     response.

     Auditor's Response – The OIG concurs that loans and grants to customers
     are not allowed under the terms of the current power contract. If the TVA
     Board approves a policy as described in the TVA management response,
     this practice may no longer be a violation of contract provisions.

20. Evaluate the response to Recommendation 21 and, if TVA allows distributors
    to continue pledging electric system funds as guarantees for customer
    economic development loans with Rural Development, then develop and
    provide guidance to distributors outlining a proper due diligence process to
    be followed when loaning Rural Development funds to customers for
    economic development.

     TVA Management's Comments – TVA management stated they plan to
     allow distributors to continue the practice of pledging electric system funds
     as guarantees for customer economic development loans with Rural
     Development and will educate them on the need to follow RUS guidelines,
     including appropriate due diligence. TVA management also stated they are
     working with the distributors and the TVA Board to update the policies and
     processes for Use of Revenues as part of the role as regulator effort, and
     additional due diligence measures, if any, will be discussed and resolved as
     a part of this effort. See Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions to develop
     additional due diligence measures.

21. Consider capital credit allocations in the TVA analyses performed during the
    retail rate setting and approval process.

Audit 2010-13285                                                             Page 24
Office of the Inspector General                                             Audit Report


     Volunteer's Response – Although this was a recommendation for TVA,
     Volunteer management also responded to this recommendation stating its
     disagreement. See Appendix B for Volunteer's complete response.

     TVA Management's Comments – TVA management stated distributors are
     free to perform capital credit allocations but are not allowed to pay out capital
     credits under Section 6 of the power contract. TVA management also stated
     they had reviewed Volunteer's capital credit allocation for FY 2010 and
     determined that the methodology allocated its FY 2010 net income to the
     end use customer classes. TVA further stated it understands that
     cooperatives do not adjust net income before calculating capital credits.
     Since net income is a key metric that TVA uses in its revised retail
     ratemaking and approval process, consideration of the relevant information
     provided by Volunteer's capital credit allocations is inherent in the review
     process. TVA management concluded that they believe the
     recommendation is unnecessary because it brings no additional value to the
     retail ratemaking process. See Appendix C for TVA's complete response.

     Auditor's Response – Although Volunteer provided comments to this
     recommendation, the recommendation was only for TVA's consideration in
     developing its rate setting practices going forward. During performance of
     the audit, TVA management indicated to the OIG that TVA was not
     considering whether a distributor had been required to make a capital credit
     allocation during the TVA rate approval process. However, based on the
     supplemental information provided by TVA management, the OIG concurs
     that the new ratemaking and approval process should provide for adequate
     consideration of any capital credit allocations.




Audit 2010-13285                                                               Page 25
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Volunteer including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of Revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted; therefore, the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. Reviewed results of the queries and, using nonstatistical
    sampling, selected accounts for further analysis and follow-up to determine
    whether misclassification, metering issues, or noncompliance with contract
    requirements occurred. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Determined through inquiry and review of documentation whether Volunteer
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period. Reviewed and analyzed
    disbursements to identify instances where electric system funds may have
    been used for purposes not allowed under the TVA power contract. Used
    nonstatistical sampling to select questionable disbursements for further
    analysis and follow-up. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
                                                                       APPENDIX A
                                                                        Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work we will use both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit the quantitative factor(s) to be considered in determining
an item's significance are:

   If the dollar value of an error(s) and/or item of noncompliance with the
    contract exceeds 3 percent of the distributor's average annual power cost
    during the audit period, or $4,859,347.82, it would be considered significant.
   In respect to the distributor's unapproved Use of Revenues, we consider the
    following to be significant.
     A negative cash ratio results after subtracting the distributor's funds at risk
        during the audit period (loans extended or debts guaranteed with electric
        revenues) from the cash and cash equivalents balance at the end of the
        audit period.
     Amounts expended by the electric department on behalf of a nonelectric
        department/operating unit during the audit period (without payback from
        the nonelectric department) exceed the rate increase amounts approved
        by TVA during the audit period.

The scope of the audit was for the period July 2008 through June 2010.
Fieldwork was conducted April through July 2011 and included visiting the
distributor's corporate office in Decatur, Tennessee. This performance audit was
conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDIX B
 Page 1 of 5
APPENDIX B
 Page 2 of 5
APPENDIX B
 Page 3 of 5
APPENDIX B
 Page 4 of 5
APPENDIX B
 Page 5 of 5
APPENDIX C
 Page 1 of 6
APPENDIX C
 Page 2 of 6
APPENDIX C
 Page 3 of 6
APPENDIX C
 Page 4 of 6
APPENDIX C
 Page 5 of 6
APPENDIX C
 Page 6 of 6
